<html>
<title> - HOW TSA CAN IMPROVE AVIATION WORKER VETTING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





              HOW TSA CAN IMPROVE AVIATION WORKER VETTING

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2015

                               __________

                           Serial No. 114-21

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                             __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-167 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Kathleen M. Rice, New York
Earl L. ``Buddy'' Carter, Georgia    William R. Keating, Massachusetts
Mark Walker, North Carolina          Donald M. Payne, Jr., New Jersey
John Ratcliffe, Texas                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
             Vacancy, Minority Subcommittee Staff Director
             
             
             
             
             
             
             
             
             
             
             
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Transportation Security........................................     3

                               Witnesses

Mr. John Roth, Inspector General, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Ms. Stacey Fitzmaurice, Deputy Assistant Administrator, Office of 
  Intelligence and Analysis, Transportation Security 
  Administration, U.S. Department of Homeland Security...........    10
Ms. Jennifer A. Grover, Director, Transportation Security and 
  Coast Guard Issues, Homeland Security and Justice Team, U.S. 
  Government Accountability Office:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13

 
              HOW TSA CAN IMPROVE AVIATION WORKER VETTING

                              ----------                              


                         Tuesday, June 16, 2015

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 311, Cannon House Office Building, Hon. John Katko 
[Chairman of the subcommittee] presiding.
    Present: Representatives Katko, Rogers, Carter, Ratcliffe, 
McCaul, Rice, Keating, and Payne.
    Mr. Katko. The Homeland Security Subcommittee on 
Transportation Security will come to order.
    The subcommittee is meeting today to hear testimony on 
improving aviation worker vetting by TSA. I now recognize 
myself for an opening statement.
    I would like to welcome everyone to today's hearing on how 
TSA can improve aviation worker vetting. Since the start of the 
Congress, my subcommittee has actively engaged and examined a 
number of alarming aspects relating to TSA's operations, 
policies, and procedures. Through hearings, oversight 
inquiries, and legislation, we have been working to get to the 
bottom of these issues and raise awareness of the urgent need 
to fix them. Recent revelations that the TSA cleared for 
employment individuals with potential ties to terrorism 
demonstrate the dire need for improved, streamlined procedures 
at TSA. The findings released by the Department of Homeland 
Security inspector general over the last few weeks are, indeed, 
alarming.
    In May, the inspector general released a report that found 
that TSA did not have the appropriate controls in place to 
ensure that screening equipment has necessary maintenance work 
performed. A few weeks ago, news outlets reported test results 
showing that screeners failed to detect prohibited threat items 
96 percent of the time. Just last week, we learned that 73 
airport employees with potential ties to terrorism were issued 
credentials which allowed them to get access to secure areas of 
airports. These more recent findings come out on the heels of 
revelations earlier this year of security breaches by employees 
at major U.S. airports involving a Nation-wide gun-smuggling 
ring and an employee of the FAA bypassing security and flying 
with a loaded firearm using his SIDA badge.
    More recently, we learned of a drug trafficking ring 
operating out of the airport in Oakland, California. All of 
these findings individually are concerning. In the aggregate, 
well, they just shake the public's confidence and only further 
demonstrate the need for steady leadership at TSA to work 
through the many issues that plague this agency.
    This committee will continue to lead efforts to close 
security loopholes and ensure the continuing safety and 
security of our Nation's aviation system. The purpose of 
today's hearing is to thoroughly examine the identified 
security gaps highlighted in the most recent IG report about 
aviation worker vetting and find ways to improve the vetting 
process to ensure that these vulnerabilities are addressed and 
the American people can feel safe and secure when traveling.
    Aviation workers are supposed to be thoroughly vetted due 
to their continuing access to sensitive areas of airports and 
the fact that they hold a position of trust within the 
transportation system. However, as the IG report has found so 
clearly, there are significant shortfalls in the vetting 
policies for aviation workers. For example, the IG found that 
TSA does not have access to all the data it may need to 
thoroughly check an aviation worker's potential ties to 
terrorism. However, what is even more alarming is that a memo 
was sent to the TSA administrator last year noting the need for 
additional information. TSA has still yet to resolve this gap a 
year later. The report also found that airports do not match 
the expiration date of an employee's credentials to the 
expiration of their legal work authorization in the United 
States.
    Again, while TSA stated they are working to resolve these 
issues by the end of the calendar year, it raises serious 
concerns that this gap exists in the first place. Therefore, I 
have sponsored H.R. 2750, the Improved Security Vetting for 
Aviation Workers Act of 2015, which I introduced last week 
along with Chairman McCaul and Ranking Member Rice and 
Congressman Payne, to close these security gaps and ensure the 
safety and security of the transportation networks. The reality 
is in this post-9/11 world that the terrorist threat is 
metastasizing. We, as a Nation, must remain responsive to any 
holes in the security of our transportation systems and ensure 
that the protocols keep pace with the ever-evolving threat 
landscape.
    Improving the vetting of the aviation workers who have 
access to these sensitive areas of airports can help close 
another back-door vulnerability at our Nation's airports. At 
today's hearing, we have representatives from the TSA, the DHS 
inspector general himself, and GAO to address how the 
recommendations highlighted in the report can be implemented, 
and what tools are needed to improve the security at our 
Nation's airports. I look forward to hearing their testimony 
and having a meaningful dialogue on how we can better protect 
this vital transportation mode and keep aviation safe and 
secure for the American people.
    The Chair now recognizes the Ranking Minority Member of the 
subcommittee, the gentlelady from New York, Miss Rice, for any 
statement she may have.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
    I would like to welcome everyone to today's hearing on how TSA can 
improve aviation worker vetting. Since the start of this Congress, my 
subcommittee has actively examined a number of alarming aspects related 
to TSA's operations, policies, and procedures. Through hearings, 
oversight inquiries, and legislation, I have been working to get to the 
bottom of these issues and raise awareness of the urgent need to fix 
them. Recent revelations that the TSA cleared for employment 
individuals with potential ties to terrorism demonstrate the dire need 
for improved, streamlined procedures at the TSA.
    The findings released by the Department of Homeland Security 
Inspector General over the last few weeks are alarming. In May, the 
Inspector General released a report that found that TSA did not have 
the appropriate controls in place to ensure that screening equipment 
has necessary maintenance work performed. A few weeks ago news outlets 
reported test results showing that screeners failed to detect 
prohibited threat items 96% of the time, and just last week we learned 
that 73 airport employees with potential ties to terrorism were issued 
credentials granting them access to work in the secure areas of our 
Nation's airports. These more recent findings come on the heels of 
revelations earlier this year of security breaches by employees at 
major U.S. airports involving a Nation-wide gun-smuggling ring and an 
employee of the FAA bypassing security and flying with a loaded firearm 
using his SIDA badge. All of these findings individually are 
concerning, and, in the aggregate, shake public confidence and only 
further demonstrate the need for steady leadership at TSA to work 
through the many issues that plague the agency.
    This committee will continue to lead efforts to close security 
loopholes and ensure the continuing safety and security of our Nation's 
aviation system. The purpose of today's hearing is to thoroughly 
examine the identified security gaps highlighted in the most recent IG 
report about aviation worker vetting and find ways to improve the 
vetting process to ensure that these vulnerabilities are addressed and 
the American people can feel safe and secure when traveling.
    Aviation workers are supposed to be thoroughly vetted, due to their 
continuing access to sensitive areas of airports and the fact they hold 
a position of trust within the transportation system. However, the IG 
report found significant shortfalls in the vetting policies for 
aviation workers. For example, the IG found that TSA does not have 
access to all of the data it may need to thoroughly check an aviation 
worker's potential ties to terrorism. However, what is even more 
alarming is that a memo was sent to the TSA administrator last year 
noting the need for additional information, and TSA has still yet to 
resolve this gap. The report also found that airports do not match the 
expiration date of an employee's credential to the expiration of their 
legal work authorization in the United States. Again, while TSA stated 
they are working to resolve this issue by the end of the calendar year, 
it raises serious concerns that this gap exists in the first place.
    That is why I have sponsored H.R. 2750, the Improved Security 
Vetting for Aviation Workers Act of 2015, which I introduced last week, 
along with Chairman McCaul, Ranking Member Rice, and Congressman Payne 
to close these security gaps, and ensure the safety and security of the 
transportation networks.
    The reality is that in this post-9/11 world, the terrorist threat 
is metastasizing and we, as a Nation, must remain responsive to any 
holes in the security of our transportation systems and ensure that the 
protocols keep pace with the ever-evolving threat landscape. Improving 
the vetting of the aviation workers who have access to these sensitive 
areas of airports can help close another backdoor vulnerability at our 
Nation's airports.
    At today's hearing, we have representatives from TSA, the DHS 
inspector general, and GAO to address how the recommendations 
highlighted in the report can be implemented and what tools are needed 
to improve the security at our Nation's airports. I look forward to 
hearing their testimony and having a meaningful dialogue on how we can 
better protect this vital transportation mode and keep aviation safe 
and secure for the American people.

    Miss Rice. Thank you, Mr. Chairman. Thank you for convening 
this hearing. We have an important question to answer today: 
How can we do a better job vetting aviation workers? How can we 
do a better job ensuring that criminals and terrorists cannot 
get a job in one of our airports and gain access to secure 
areas? Clearly, if a terrorist were to penetrate an airport in 
that way, the results could be catastrophic.
    We have to assume that right now someone is trying to do 
just that. We have to assume that we can prevent it. We have to 
keep working together aggressively and proactively to 
strengthen our security, find and close the gaps, and stay one 
step ahead.
    TSA is responsible for vetting diverse groups of people, 
from the Transit Worker Identification Credential Program to 
PreCheck, to aviation worker programs. Aviation workers, 
themselves, are a diverse group of people who play many 
different and important roles within the commercial airport 
environment, from the person who works at the newsstand beyond 
the security checkpoints to the mechanic who has access to the 
plane itself to perform his or her duties. What these two 
people have in common is that they both go to work every day 
beyond the checkpoints in the secure area of the airport. We 
have to do everything within our power to ensure that people 
who go to work in these secure areas are exhaustively vetted, 
both before employment and on a recurring basis, and prove 
themselves to be trustworthy.
    Last week, the Department of Homeland Security Office of 
Inspector General issued a report that detailed how 73 
individuals with links to terrorism were able to get jobs with 
airlines and airport vendors and were cleared to access secure 
areas. That is unacceptable. First, we should all be grateful 
to the inspector general for bringing this to our attention. To 
know that this threat was out there, to think about what could 
have happened should be all the motivation we need to work 
together, act swiftly, and do what needs to be done to make 
sure this doesn't happen again.
    That is why we are here today, not to create a spectacle or 
cast blame. We are here to figure out how this happened, what 
we need to learn from it, and what we need to do to close this 
gap in our security. I also want to point out that Inspector 
General Roth, himself, noted that TSA's vetting process was, 
``generally effective.'' So that is not the problem here. As 
far as I understand, there seem to be two main factors that 
allowed this to happen.
    No. 1, because of the current interagency watch list 
policy, TSA doesn't have access to databases that would have 
captured the individuals in question and alerted TSA to their 
terrorism indicators. That, too, is simply unacceptable and has 
to change. TSA should have had access to all information about 
these individuals. TSA should have access to any and all 
information that will make their vetting process as exhaustive 
as possible.
    No. 2, the report also made it clear that TSA's own 
databases are a mess. Eighty-seven thousand employee files 
without Social Security numbers, many with no passport number 
or proof of citizenship, 300 files with no full name for the 
employee. There is no excuse for that. It strikes me, as I am 
sure everyone, as sloppy. There is no place for sloppiness when 
we are dealing with the security of our Nation's aviation 
system.
    We strive for a security system that is airtight and 
precise. In order to achieve that, our information must be 
airtight. Everything we do must be precise. The inspector 
general's office has issued six recommendations, all of which 
will help to address these issues. I appreciate the fact that 
TSA has concurred with these recommendations and is already 
taking steps to implement them.
    I look forward to hearing more about these issues and 
corrective actions today. After this hearing, I look forward to 
taking up legislation authored by myself and Chairman Katko 
that will codify recommendations from this report and from 
another OIG report that details the need for TSA to properly 
manage its airport screening equipment maintenance program.
    I want to thank each one of our witnesses for being here 
today. I am eager to hear all of your testimony and have a 
productive conversation about how we can do a better job 
vetting aviation workers, how we can do a better job keeping 
airports secure, and primarily keeping passengers safe.
    Mr. Chairman, I thank you again for convening this hearing. 
I yield back the balance of my time.
    Mr. Katko. Thank you, Miss Rice.
    I know at least the Chairman of the Homeland Security full 
committee, Mr. McCaul, plans on coming here and making a 
statement. When he comes, we will give him an opportunity to do 
so. He is held up in another hearing. I will extend the same 
courtesy to Mr. Thompson if he shows up.
    With respect to the other Members of the committee, I want 
to remind you that opening statements may be submitted for the 
record. We are pleased to have several distinguished witnesses 
before us today on this important topic. Let me remind the 
witnesses that their entire written statements will appear in 
our record.
    Somebody that is well familiar to this committee and to 
Homeland Security as a whole is Mr. Roth. Welcome back. Thank 
you for your continuing good work, sir. Ms. Fitzmaurice, of 
TSA, thank you for being here. Ms. Grover, thank you for being 
here as well. I would like to hear from Mr. Roth with respect 
to his opening statement.

   STATEMENT OF HONORABLE JOHN ROTH, INSPECTOR GENERAL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Chairman Katko, Ranking Member Rice, and Members 
of the subcommittee, thank you for inviting me here today to 
discuss the results of our most recent TSA audit.
    Federal regulations require that individuals who work in 
secure areas of commercial airports undergo background checks. 
TSA and the airports are required to perform these checks 
before granting individuals badges that allow them unescorted 
access to secure areas. Each background check includes a 
security threat assessment from TSA, including a terrorism 
check, a fingerprint-based criminal history records check, and 
evidence of the applicant's authorization to work in the United 
States. The airports themselves collect this information used 
for vetting and submit it to TSA through a contractor.
    Once TSA receives biographic data, it electronically 
matches it against an extract of the Terrorist Screening 
Database to identify individuals with potential links to 
terrorism. TSA also recurrently vets airport workers every time 
it receives a watch list update. Based on this review, TSA may 
direct the airport to grant, deny, or revoke a credential after 
coordination with other Government entities.
    We found that TSA was generally effective in identifying 
individuals with links to terrorism. However, we did undercover 
a significant weakness. At our request, the National 
Counterterrorism Center performed a data match of over 900,000 
airport workers who have access to secure areas against the 
National Counterterrorism Center's TIDE database. As a result 
of this match, we identified 73 individuals with terrorism-
related category codes within the TIDE database who also had 
active airport credentials.
    According to TSA officials, current interagency policy 
prevents TSA from receiving all terrorism-related codes during 
vetting. This lack of access to complete records resulted in 
TSA not discovering the issue with these 73 individuals. TSA 
officials candidly recognize that not receiving these codes 
represents a weakness in its program and informed us that TSA 
cannot guarantee that it can consistently identify all 
questionable individuals without receiving those categories.
    In 2014, the TSA administrator authorized his staff to 
request some of the missing category codes for vetting. 
However, according to an official at the DHS Office of Policy, 
TSA and DHS has yet to formalize the request to the 
watchlisting interagency policy committee in order to receive 
additional categories of terrorism-related records.
    Additionally, we found an issue with the manner in which 
airport workers are checked for criminal histories. The 
airports themselves maintain the ultimate authority to review 
and determine whether an individual's criminal history contains 
disqualifying crimes under Federal law. However, TSA did not 
have an adequate monitoring process in place to ensure that 
airport operators properly adjudicated these criminal 
histories.
    TSA officials informed us that airport officials rarely or 
almost never documented the results of their criminal history 
reviews electronically. Without sufficient documentation, TSA 
cannot systematically determine whether individuals with access 
to secure areas of the airport are free of disqualifying 
criminal convictions. Moreover, under current law and FBI 
policy, TSA and the airports are not legally authorized to 
conduct recurrent vetting of criminal histories. We also found 
a weakness in the verification process for an individual's 
authorization to work in the United States.
    As with criminal histories, it is the airport operators who 
are required to ensure that aviation workers are authorized to 
work before sending their information to TSA for review. TSA 
then verifies that aviation workers have lawful status. 
However, a review of TSA data showed that TSA has had to deny 
credentials for over 4,800 applicants because TSA determined 
that they did not prove their lawful status in the United 
States even after appeal. Now, this occurred despite the fact 
that these individuals had previously been cleared to work by 
the airports as being legally authorized to work.
    Finally, we looked at the quality of the data that is 
involved in worker vetting. TSA relies on airports to submit 
complete and accurate aviation worker data. However, we 
identified thousands of aviation worker records that appeared 
to have incomplete or inaccurate biographic information. We 
made six recommendations in our report. TSA agreed to all the 
recommendations and provided target completion dates for 
corrective actions. We will follow up on the implementation of 
these corrective actions.
    Mr. Chairman, thank you again for inviting me to testify 
here today. I look forward to any questions you or other 
Members of the committee may have.
    [The prepared statement of Mr. Roth follows:]
                    Prepared Statement of John Roth
                             June 16, 2015
    Chairman Katko, Ranking Member Rice, and Members of the 
subcommittee: Thank you for inviting me here today to discuss the 
results of the Office of Inspector General's audit of the 
Transportation Security Administration's vetting of employees with 
access to secure areas of the airports.\1\ We also reported on TSA 
worker vetting operations in 2011 and prior years.\2\ In addition to 
reviewing vetting operations, in the past we have also used covert 
testing to determine whether unauthorized and potentially dangerous 
individuals could gain access to secured airport areas.\3\
---------------------------------------------------------------------------
    \1\ TSA Can Improve Aviation Worker Vetting (Redacted), OIG-15-98.
    \2\ TSA's Oversight of the Airport Badging Process Needs 
Improvement, OIG-11-95; Transportation Security Administration's 
Aviation Channeling Services Provider Project, OIG-13-42.
    \3\ Covert Testing of Access Controls to Secured Airport Areas, 
OIG-12-26.
---------------------------------------------------------------------------
    TSA uses multiple layers of security to ensure the safety of the 
traveling public and transportation systems. Aviation worker vetting is 
just one area that we have reviewed; we have testified recently on 
multiple transportation security vulnerabilities that we believe TSA 
needs to address. Since 2004, we have published more than 115 audit and 
inspection reports about TSA's programs and operations. Our work 
includes evaluations of passenger and baggage screening, TSA PreCheck, 
TSA acquisitions, and TSA equipment deployment and maintenance.
    In our most recent audit on aviation worker vetting, we generally 
found:
  <bullet> TSA's layered controls for vetting workers for terrorism are 
        generally effective. However, TSA did not identify 73 
        individuals with terrorism-related category codes because it is 
        not authorized to receive all terrorism-related categories 
        under current interagency watchlisting policy.
  <bullet> TSA had less effective controls in place to ensure that 
        airports have a robust verification process over a credential 
        applicant's criminal history and authorization to work in the 
        United States.
  <bullet> TSA needs to improve the quality of data used for vetting 
        purposes.
    My testimony today will discuss each of these areas in further 
detail.
                       background on tsa vetting
    TSA was created in 2001 to ensure the safety and free movement of 
people and commerce within the Nation's transportation systems. As part 
of this mission, TSA has statutory responsibility for properly vetting 
aviation workers such as baggage handlers and airline and vendor 
employees.
    Federal regulations require individuals who apply for credentials 
to work in secure areas of commercial airports to undergo background 
checks. TSA and airport operators are required to perform these checks 
prior to granting individuals' badges that allow them unescorted access 
to secure areas. Each background check includes:
  <bullet> a security threat assessment from TSA, including a terrorism 
        check;
  <bullet> a fingerprint-based criminal history records check (CHRC); 
        and
  <bullet> evidence of the applicants' authorization to work in the 
        United States.
    Airports collect the information used for vetting, including each 
applicant's name, address, date of birth, place of birth, country of 
citizenship, passport number, and alien registration number (if 
applicable). TSA also relies on airport or air carrier employees to 
collect applicants' fingerprints for the CHRC.
    Once it receives biographic data, TSA electronically matches 
credential applicants against its extract of the Government's 
Consolidated Terrorist Watchlist to identify individuals with potential 
links to terrorism. TSA also recurrently vets airport workers every 
time it receives a watch list update. TSA identifies potential matches 
to terrorism-related information using varied pieces of data such as 
names, address, Social Security number (SSN), passport number, and 
alien registration number. TSA analysts manually review potential 
matches to determine whether cases represent a true match of an 
applicant to terrorism-related information and the risk posed by the 
case. Based on this review, TSA may direct the airport to grant, deny, 
or revoke, a credential after coordination with other governmental 
organizations.
    Airport operators are responsible for reviewing aviation worker 
criminal histories and his/her authorization to work in the United 
States. For the criminal history check, applicants submit fingerprint 
records through airport operators and TSA for transmittal to the FBI. 
TSA then receives the results of the fingerprint check and provides 
them to airport operators for review. Certain criminal offenses--such 
as espionage, terrorism, and some violent offenses and felonies--are 
disqualifying offenses that should prevent an individual from 
unescorted access to secured areas of an airport. TSA and the airports 
also conduct checks to verify an individual's immigration status and 
authorization to work, respectively.
                                results
Vetting for Terrorism Links
    We found that TSA was generally effective in identifying 
individuals with links to terrorism. Since its inception in 2003, TSA 
has directed airports to deny or revoke 58 airport badges as a result 
of its vetting process for credential applicants and existing 
credential holders. In addition, TSA has implemented quality review 
processes for its scoring model, and has taken proactive steps based on 
non-obvious links to identify new terrorism suspects that it nominates 
to the watch list.
    Despite rigorous processes, TSA did not identify 73 individuals 
with links to terrorism because TSA is not cleared to receive all 
terrorism categories under current inter-agency watchlisting 
guidance.\4\ At our request, the National Counterterrorism Center 
(NCTC) performed a data match of over 900,000 airport workers with 
access to secure areas against the NCTC's Terrorist Identities Datamart 
Environment (TIDE). As a result of this match, we identified 73 
individuals with terrorism-related category codes who also had active 
credentials. According to TSA officials, current interagency policy 
prevents the agency from receiving all terrorism-related codes during 
vetting.
---------------------------------------------------------------------------
    \4\ The Interagency Policy Committee responsible for watch list 
policy determines what terrorism-related categories are provided to TSA 
for vetting, while the DHS Watchlist Service provides allowable 
information to TSA.
---------------------------------------------------------------------------
    TSA officials recognize that not receiving these codes represents a 
weakness in its program, and informed us that TSA cannot guarantee that 
it can consistently identify all questionable individuals without 
receiving these categories. In 2014, the TSA administrator authorized 
his staff to request some missing category codes for vetting. However, 
according to an official at the DHS Office of Policy, TSA must work 
with DHS to formalize a request to the Watchlisting Interagency Policy 
Committee in order to receive additional categories of terrorism-
related records.
Vetting for Criminal Histories
    Airport operators review criminal histories for new applicants for 
badges to secure airport areas after receiving the results of FBI 
fingerprint checks through TSA. However, under current law and FBI 
policy, TSA and the airports are not legally authorized to conduct 
recurrent criminal history vetting, except for the U.S. Marshals 
Service Wants and Warrants database. This is because aviation worker 
vetting is considered to be for non-criminal justice purposes. Instead, 
we found airports relied on individuals to self-report disqualifying 
crimes. As individuals could lose their job if they report the crimes, 
individuals had little incentive to do so.
    TSA also did not have an adequate monitoring process in place to 
ensure that airport operators properly adjudicated credential 
applicants' criminal histories. While TSA facilitated the CHRC for 
aviation worker applicants, over 400 commercial airports maintained the 
ultimate authority to review and determine whether an individual's 
criminal history contained disqualifying crimes under Federal law. TSA 
officials informed us that airport officials rarely or almost never 
documented the results of their CHRC reviews electronically. Without 
sufficient documentation, TSA cannot systematically determine whether 
individuals with access to secured areas of the airports are free of 
disqualifying criminal events.
    TSA has taken steps to address weaknesses in criminal history 
vetting. TSA has planned a pilot of the FBI's ``Rap Back'' program to 
receive automated updates from the FBI for new criminal history matches 
associated with airport workers so that the airports can take actions. 
TSA is planning this pilot program for multiple airports in late 2015.
Vetting for Authorizations to Work
    We also found weaknesses in the verification process for an 
individual's authorization to work in the United States. Airport 
operators are required to ensure that aviation workers are authorized 
to work in the United States prior to sending their information to TSA 
for review. TSA then verifies that aviation workers have lawful status 
in the United States. However, our review of TSA data showed that TSA 
has had to send nearly 29,000 inquiries to credential applicants 
regarding their lawful status since program inception in 2004. Of those 
individuals, over 4,800 were eventually denied credentials because TSA 
determined that they did not prove lawful status even after appeal. 
This occurred despite the fact that these individuals had previously 
received clearance from the airports as being authorized to work.
    Additionally, we found that TSA did not require airports to 
restrict the credentials of individuals who may only be able to work in 
the United States temporarily. Consequently, airports did not put 
expiration dates on the badges. Although airports are required to 
verify work authorizations upon badge renewal every 2 years, or 
whenever another credential is requested, individuals may continue to 
work even when they no longer have lawful status during the period 
between badge renewals. Without ensuring that an individual's 
credential is voided when he or she is no longer authorized to work, 
TSA runs the risk of providing individuals access to secure airport 
areas even though they no longer have the authorization to work in the 
United States.
    TSA's Office of Security Operations performed annual inspections of 
commercial airport security operations, including reviews of the 
documentation that aviation workers submitted when applying for 
credentials. However, due to workload at larger airports, this 
inspection process looked at as few as 1 percent of all aviation 
workers' applications. In addition, inspectors were generally given 
airport badging office files, which contained photocopies of aviation 
worker documents rather than the physical documents themselves. An 
official from this office told us that a duplicate of a document could 
hinder an inspector's ability to determine whether a document is real 
or fake, because a photocopy may not be matched to a face, and may not 
show the security elements contained in the identification document.
TSA Can Improve the Reliability of Its Vetting Data
    TSA relied on airports to submit complete and accurate aviation 
worker application data for vetting. However, we identified thousands 
of aviation worker records that appeared to have incomplete or 
inaccurate biographic information as follows:
  <bullet> 87,000 active aviation workers did not have SSNs listed even 
        though TSA's data matching model identified SSNs as a strong 
        matching element. Pursuant to the Privacy Act, TSA is not 
        authorized to require the collection of SSNs.
  <bullet> 1,500 records in TSA's screening gateway had individuals' 
        first names containing two or fewer characters.
  <bullet> Over 300 records contained a single character.
  <bullet> An additional 75,000 records listed individuals with active 
        aviation worker credentials as citizens of non-U.S. countries, 
        but did not include passport numbers. Out of those records, 
        over 14,000 also did not list alien registration numbers. 
        According to TSA, the passport number is a desired field to 
        collect, but is not required.
    In addition to the data completeness issues that we identified, TSA 
independently determined that airports may not be providing all aliases 
used by applicants undergoing security threat assessments. This 
typically occurred when TSA's vetting process discovered that 
individuals had used aliases. Complete and accurate aliases are 
important to the accuracy and effectiveness of TSA's vetting processes. 
TSA has directed airports to report all aliases; however, to the extent 
that airports do not ensure that aliases are captured and provided to 
TSA, TSA terrorism vetting may be limited for certain individuals.
    TSA has taken steps to address some of these weaknesses. TSA made 
system enhancements between 2012 and 2014 designed to improve the 
quality of data that it received from airports. For example, TSA will 
refuse to vet individuals if their birth dates show that they were 
younger than 14 or older than 105 and encourage airports to submit 
electronic copies of immigration paperwork with applications to 
expedite the vetting process. These enhancements will become effective 
for new or reissued badges, which should happen within 2 years as 
required by TSA's security policy.
                            recommendations
    We made six recommendations in our report:
  <bullet> Follow up on the request for additional categories of 
        terrorism-related records.
  <bullet> Require inspectors to view original identity documents 
        supporting airport adjudication of an applicant's criminal 
        history and work authorization.
  <bullet> Pilot FBI's Rap Back Program and take steps to institute 
        recurrent vetting of criminal histories at all commercial 
        airports.
  <bullet> Require airports to link credential end dates to temporary 
        work authorization end dates.
  <bullet> Perform analysis to identify airports with weaknesses 
        related to applicants' lawful status.
  <bullet> Implement data quality checks to ensure complete and 
        accurate data as required by TSA policy.
    TSA agreed to all recommendations and provided target completion 
dates for corrective actions. DHS will follow up on implementation of 
these corrective actions.
                               conclusion
    TSA has the responsibility to ensure transportation security and 
the free and safe movement of people and commerce throughout the 
Nation. Effectively carrying out this responsibility is of paramount 
importance, given emerging threats and the complex and dynamic nature 
of this Nation's transportation system. We previously testified about 
major TSA deficiencies in accomplishing its transportation security 
mission, including extensive failures at TSA checkpoints identified 
during recent penetration testing, as well as weaknesses in its 
PreCheck vetting and screening process. With our recent report, we add 
another security vulnerability that TSA must address: Ensuring it has 
all relevant terrorism-related information when it vets airport 
employees for access to secure airport areas. We will continue to 
monitor TSA's progress as it takes corrective actions to address these 
vulnerabilities.
                    computer matching act exception
    I would be remiss if I did not mention the data matching issues 
that we encountered while conducting this audit. As part of this 
review, we collaborated with the NCTC to perform a data match of 
aviation worker's biographic data against TIDE to determine if TSA 
identified all individuals with potential links to terrorism. Because 
we do not have an exemption from the Computer Matching Act, it took us 
18 months to get a Memorandum of Understanding in place with the NCTC 
in order to perform this data match--and that was with full cooperation 
from the NCTC. We support legislation pending in the House, the 
Inspector General Empowerment Act (H.R. 2395), that would give 
Inspectors General a computer matching exception. This would enable us 
to conduct these types of audits on a more frequent basis and with 
greater ease.
    Mr. Chairman, thank you for inviting me to testify here today. I 
look forward to discussing our work with you and the Members of the 
subcommittee.

    Mr. Katko. Thank you, Mr. Roth, for your continued 
professionalism in handling these matters. We appreciate you 
being here today of course.
    Our second witness, Ms. Fitzmaurice, the deputy assistant 
administrator for TSA's Office of Intelligence and Analysis. 
Prior to her current role, Ms. Fitzmaurice served as division 
director for the Checkpoint Solutions and Integrity Division 
within TSA's Office of Security Capabilities. In this position, 
she led TSA's efforts to identify, acquire, and manage state-
of-the-art technologies and capabilities that screen passengers 
at U.S. airports. Prior to beginning her Federal career, Ms. 
Fitzmaurice held management positions with Airline Reporting 
Corporation, U.S. Airways, and Trans State Airlines. The Chair 
now recognizes Ms. Fitzmaurice to testify.

       STATEMENT OF STACEY FITZMAURICE, DEPUTY ASSISTANT 
      ADMINISTRATOR, OFFICE OF INTELLIGENCE AND ANALYSIS, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Fitzmaurice. Good morning, Chairman Katko, Ranking 
Member Rice, and distinguished Members of the subcommittee. I 
appreciate the opportunity to appear before you today to 
testify about TSA's aviation worker vetting program. TSA 
conducts security threat assessments for more than 2 million 
workers requiring badged access to airports. These individuals 
undergo terrorist watch list checks, as well as immigration 
status, and criminal history records checks.
    TSA checks against the Terrorist Screening Database are 
constant and give us near-real-time notification of any changes 
to the list of known or suspected terrorists so that we can 
take appropriate action. Both the IG and an independent review 
of DHS's vetting processes deemed TSA's vetting to be 
effective. TSA has made key enhancements to aviation worker 
vetting through projects that began in 2012. These include the 
ability for airports to upload immigration and identity 
documents, to conduct more robust identity verification and 
immigration checks, and implementing system logic to reject 
inaccurate information. We will continue to work on 
improvements in this area.
    Airport operators are responsible for reviewing FBI 
criminal history records and ultimately making a determination 
about granting badges to workers that provide secure access to 
our Nation's airport according to TSA's requirements. An 
airport operator may not issue a badge if TSA deems the 
individual to be ineligible. Airports represent a critical 
layer of security by making risk-based decisions using TSA 
provided information and locally-derived information for the 
final badging decision.
    TSA recognizes the value of conducting more frequent or 
recurrent criminal checks on workers to identify cases where 
there has been subsequent criminal activity. TSA's use of 
criminal history records checks is considered by the FBI to be 
for non-criminal justice purposes according to pre-9/11 law and 
regulations. As such, TSA has not had access to criminal checks 
that are available to law enforcement agencies. However, in 
September 2014, the FBI implemented a new automated capability 
called Rap Back that will provide this service to other 
agencies such as TSA for a fee.
    TSA and the FBI have been working together to implement 
recurrent criminal checks. TSA is planning for an initial Rap 
Back pilot in the aviation sector to begin later this calendar 
year. The IG recently made several key recommendations on 
worker vetting, including one that TSA had also identified as 
an area for enhancement in 2014. Namely, that there is 
additional intelligence-related data that may provide value and 
inform TSA's vetting decisions. Using this data, the IG 
identified 73 cases for additional attention.
    To be clear, these individuals are not considered to be 
known or suspected terrorists. TSA has re-reviewed all 73 cases 
and found the individuals do not pose a threat to 
transportation security. The additional data did not change its 
original determination for these cases. These additional 
intelligence records do not meet the reasonable suspicion 
standard of being considered a known or suspected terrorist by 
the U.S. Government. That being said, TSA recognizes the value 
of having as much relevant data as possible to make informed 
decisions in its vetting. As such, former TSA Administrator 
Pistole signed a memo in 2014 supporting TSA's request and 
receipt for the additional data.
    This information may not only be important for TSA to 
conduct its security threat assessment, but also may allow TSA 
to assist the intelligence and law enforcement community by 
identifying previously unknown associations of known or 
suspected terrorists. TSA and the Department are aggressively 
pursuing automated access to the data and working to expedite 
the process in interagency coordination to complete the 
request. TSA concurs with all six of the IG recommendations and 
is taking steps to address all of them.
    In addition to the three items I have already mentioned, we 
will also be including a requirement for inspectors to include 
verifying an airport badging office's review of applicant 
criminal history records and legal status, publishing guidance 
to all regulated airports to ensure that the airport badging 
offices deactivate the badges promptly when an individual's 
temporary authorization to work in the United States ends, and 
working with airports to analyze denials based on legal status, 
validate the reasons for the denial, and issue guidance to 
airports to address any weaknesses.
    The IG findings support our efforts to improve the vetting 
of regulated aviation workers and compliment the steps TSA has 
taken to address the potential insider threat vulnerability at 
U.S. airports. We recognize the value of complete and accurate 
information when conducting vetting. We will continue to 
identify areas for improvements.
    TSA appreciates the work of the IG during the course of 
this audit. We will use the information to enhance our 
processes going forward. I want to thank the committee for your 
interest in this important issue. I look forward to answering 
your questions.
    Mr. Katko. Thank you, Ms. Fitzmaurice, for your testimony.
    Our third witness is Ms. Jenny Grover, director of the 
Homeland Security and Justice Team at the Government 
Accountability Office. Her portfolio includes GAO reviews of 
TSA and Coast Guard programs and operations. Ms. Grover joined 
the GAO in 1991. The Chair now recognizes her to testify.

   STATEMENT OF JENNIFER A. GROVER, DIRECTOR, TRANSPORTATION 
SECURITY AND COAST GUARD ISSUES, HOMELAND SECURITY AND JUSTICE 
          TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Grover. Good morning, Chairman Katko, Ranking Member 
Rice, Chairman McCaul, and other Members and staff. I am 
pleased to be here today to discuss TSA's implementation and 
oversight of the aviation worker program which TSA and airports 
use to determine whether airport workers pose security threats.
    TSA, in collaboration with airport operators and the FBI, 
completes applicant background checks, known as security threat 
assessments, for airport facility workers, retail employees, 
and airline employees. In general, security threat assessments 
include checks of an applicant's criminal history, immigration 
status, and known links to terrorism. TSA and airport operators 
have different responsibilities within the process.
    Airport operators collect applicant information and send it 
to TSA for the security threat assessment. TSA reviews the 
results of the terrorism and immigration checks to determine if 
the applicant meets the eligibility criteria for holding an 
airport credential. TSA transmits the results of the FBI 
criminal history check, which contains information from a 
National fingerprint and criminal history system, back to the 
airport operator for review. Based on this information, the 
airport operator evaluates the criminal history to identify 
potentially disqualifying criminal offenses and then makes a 
determination of eligibility. The airport also enrolls approved 
applicants and issues a credential providing for access to 
secured areas of the airport.
    TSA has faced long-time challenges obtaining the necessary 
criminal history information to accurately assess aviation 
workers. In December 2011, we found that limitations in the 
criminal history checks increased the risk that the agency was 
not detecting all applicants with potentially disqualifying 
criminal offenses. For the purposes of accessing FBI criminal 
history records, TSA is considered a non-criminal justice 
requester, similar to that of a private company conducting an 
employment check on a new applicant. As a result, the 
information that TSA received on aviation work applicants was 
often incomplete.
    For example, at the time of our report, TSA did not have 
access to many State records with information on sentencing, 
release date, and parole or probation violations. We 
recommended that TSA and the FBI jointly assess the extent to 
which this limitation posed a security risk and consider 
alternatives. TSA and the FBI concluded that the risk of 
incomplete information could be mitigated through improved 
access to State-supplied records. The FBI has since reported 
expanding the criminal history information that is available to 
TSA for these security threat assessments.
    Our remaining vulnerability, as others have noted this 
morning, is that until recently, TSA did not conduct periodic 
criminal history checks of airport workers after they had been 
hired. In fact, workers who maintained continuous employment 
with the same airport authority did not undergo any subsequent 
criminal history checks.
    In April 2015, TSA changed this policy by requiring 
periodic criminal history checks of all credentialed airport 
workers with unescorted access to secure areas of the airport. 
According to this requirement, TSA will conduct these checks 
until they are able to establish a system for real-time, 
recurrent criminal history checks, similar to the way that TSA 
conducts recurrent vetting against the terrorism database for 
their aviation workers.
    In conclusion, with more complete and updated information 
about applicant and current worker criminal histories, TSA and 
airports are better positioned to detect all individuals with 
potentially disqualifying criminal offenses. TSA's new 
requirement to periodically conduct criminal history checks of 
their aviation workers is a positive interim step while TSA and 
the FBI work toward full implementation of the FBI's Rap Back 
service, which is intended to provide TSA and the airports with 
real-time criminal activity monitoring.
    Chairman Katko, Ranking Member Rice, Chairman McCaul, this 
concludes my statement. I look forward to your questions.
    [The prepared statement of Ms. Grover follows:]
                Prepared Statement of Jennifer A. Grover
                             June 16, 2015
    Chairman Katko, Ranking Member Rice, and Members of the 
subcommittee: I am pleased to be here today to discuss our past work 
examining the Transportation Security Administration's (TSA) Aviation 
Workers Program. It has been nearly 14 years since the attacks of 
September 11, 2001, exposed vulnerabilities in the Nation's civil 
aviation system. Since then, TSA, within the Department of Homeland 
Security (DHS), has taken steps to ensure that airport workers who 
require unescorted access to secure areas of commercial (i.e., TSA-
regulated) airports are properly vetted to identify those who may pose 
a security threat. These efforts are intended to reduce the probability 
of a successful terrorist or other criminal attack at the Nation's 
approximately 450 commercial airports. However, TSA has faced 
challenges in obtaining the necessary information to accurately assess 
aviation workers. According to TSA, the threat to civil aviation has 
not diminished--underscoring the need for effective airport worker 
screening programs.
    As requested, my testimony today describes the role of TSA and 
airport operators in assessing aviation workers for potential security 
threats, as well as challenges and recent improvements. In carrying out 
this process, TSA and airports work in collaboration with the Federal 
Bureau of Investigation (FBI) to vet applicants against the FBI's 
criminal history records, terrorist watch lists and other databases, 
and issue credentials to qualifying airport facility workers, retail 
employees, and airline employees, among others. This statement is based 
on our report and testimonies issued from December 2011 through June 
2015 related to TSA's efforts to vet aviation workers.\1\ For our past 
work, we reviewed applicable laws, regulations, and policies as well as 
TSA program documents, decision memorandums, and other documents. We 
interviewed DHS, TSA, and FBI officials. We also conducted selected 
updates in June 2015 on recent DHS and TSA efforts to vet aviation 
workers. For these recent DHS and TSA efforts, we reviewed applicable 
policies and the Aviation Security Advisory Committee's (ASAC) April 
2015 report on improving airport employee access control.\2\ We 
reviewed the report's methodology and determined that the findings were 
reasonable for use in our report. Further details on the scope and 
methodology for the previously issued report and testimonies are 
available within each of the published products. We conducted the work 
on which this statement is based in accordance with generally accepted 
Government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \1\ See GAO, Transportation Security: Actions Needed to Address 
Limitations in TSA's Transportation Worker Security Threat Assessments 
and Growing Workload, GAO-12-60 (Washington, DC: Dec. 8, 2011); 
Aviation Security: TSA Has Taken Steps to Improve Oversight of Key 
Programs, but Additional Actions Are Needed, GAO-15-559T (Washington, 
DC: May 13, 2015); and Aviation Security: TSA Has Taken Steps to 
Improve Oversight of Key Programs, but Additional Actions Are Needed, 
GAO-15-678T (Washington, DC: June 9, 2015).
    \2\ See ASAC, Final Report of the Aviation Security Advisory 
Committee's Working Group on Airport Access Control (Arlington, VA: 
April 8, 2015).
---------------------------------------------------------------------------
                               background
    In accordance with the Aviation and Transportation Security Act 
(ATSA), enacted following the September 11, 2001, terrorist attacks, 
TSA requires that airport operators (e.g., an airport authority) 
undertake specific actions before issuing credentials to airport 
workers seeking unescorted access to secure areas of an airport to 
reduce potential security risks posed by these workers.\3\ For example, 
a worker seeking unescorted access to a Security Identification Display 
Area (SIDA) must first undergo a fingerprint-based criminal history 
record check.\4\ TSA oversees implementation of these requirements 
through its Aviation Workers Program, which focuses on identifying 
security threats posed by those individuals seeking to obtain a 
credential for unescorted access to secure or restricted areas of 
airports. Specifically, TSA, in collaboration with airport operators 
and the FBI, completes applicant background checks, including Security 
Threat Assessments, for airport facility workers, retail employees, 
airline employees, and any other workers who apply for or are issued a 
credential for unescorted access to secure areas in U.S. airports. In 
general, Security Threat Assessments include checks for criminal 
history records and immigration status, checks against terrorism 
databases and watch lists, and checks for records indicating an 
adjudication of lack of mental capacity, among other things.
---------------------------------------------------------------------------
    \3\ See generally 49 C.F.R. pt. 1542, subpt. C. In general, secure 
areas of the airport include areas specified in an airport's security 
program: (1) Where air carriers enplane and deplane passengers, sort 
and load baggage, and any adjacent areas (secured areas), (2) in which 
appropriate identification must be worn (SIDAs), (3) that provide 
passengers access to boarding aircraft and to which access is general 
controlled through the screening of persons and property (sterile 
areas), and (4) that include aircraft movement areas, aircraft parking 
areas, loading ramps, and safety areas that are not separated by 
adequate security systems, measures, or procedures (air operations 
areas). See 49 C.F.R.  1540.5.
    \4\ See 49 C.F.R.  1542.205.
---------------------------------------------------------------------------
 tsa and airport operators share responsibilities for aviation worker 
                                vetting
    TSA and airport operators each have certain responsibilities within 
the credentialing process. For example, we reported in December 2011 
that airport operators are responsible for ensuring the collection of 
application information, transmitting the results to TSA for the 
Security Threat Assessment, enrolling approved applicants, and issuing 
credentials.\5\ TSA's roles include adjudicating the immigration and 
terrorism checks, running automated FBI criminal history records, and 
transmitting the results of the criminal history record checks to the 
airport operators. The FBI's criminal history records contain 
information from a National fingerprint and criminal history system.\6\ 
If an individual has a criminal record in the database, the FBI 
provides the criminal history record check results to TSA. TSA, in turn 
transmits the results to the airport operator. The airport operators 
are responsible under TSA regulations for adjudicating the criminal 
history to identify potentially disqualifying criminal offenses 
specified under TSA regulations, and making a final determination of 
eligibility for a credential.\7\ In doing so, airport operators may 
follow up with an applicant if the FBI Record of Arrests and 
Prosecutions (RAP) sheet TSA provided lacks a disposition of a criminal 
offense--which is necessary for the airport operators to determine if 
the applicant has potentially disqualifying criminal offenses.\8\ 
Furthermore, airport operators, and not TSA, are the entities 
responsible for revoking the issued credentials.\9\ For example, 
airport operators are to revoke a worker's credentials if TSA 
determines the worker poses a threat or violates airport security 
policy. Figure 1 summarizes the credentialing processes and respective 
responsibilities of TSA and airport operators under TSA's Aviation 
Workers Program.
---------------------------------------------------------------------------
    \5\ GAO-12-60.
    \6\ The system provides automated fingerprint search capabilities, 
latent search capability, electronic image storage, and electronic 
exchange of fingerprints and responses. A segment of this system is the 
FBI-maintained criminal history record repository, known as the 
Interstate Identification Index (III, or Triple I) system that contains 
records from all States and territories, as well as from Federal and 
international criminal justice agencies. The State records in the III 
are submitted to the FBI by central criminal record repositories that 
aggregate criminal records submitted by most or all of the local 
criminal justice agencies in their jurisdictions. The FBI's criminal 
history records check is a negative identification check, whereby the 
fingerprints are used to confirm that the associated individual is not 
identified as having a criminal record in the database.
    \7\ See, e.g., 49 C.F.R.  1542.209.
    \8\ See appendix I for a list of TSA Aviation Worker disqualifying 
criminal offenses.
    \9\ If TSA determines that an individual poses a threat based on 
checks of information in the Terrorist Screening Database or 
immigration checks, TSA will notify the airport operator to revoke the 
credential. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


tsa has taken actions to address limitations in aviation worker vetting
    Criminal history record checks are a key element of the Security 
Threat Assessment process for TSA's Aviation Worker Program, helping to 
ensure that the agency and airport operators detect those applicants 
with potentially disqualifying criminal offenses. However, TSA has 
faced challenges in ensuring it has the necessary criminal information 
to effectively conduct Security Threat Assessments for applicants to 
its Aviation Workers Program. In December 2011, we found that, 
according to TSA, limitations in its criminal history checks increased 
the risk that the agency was not detecting potentially disqualifying 
criminal offenses as part of its Security Threat Assessments for 
airport workers.\10\ Specifically, we found that TSA's level of access 
to criminal history record information in the FBI's Interstate 
Identification Index excluded access to many State records such as 
information regarding sentencing, release dates, and probation or 
parole violations, among others. For the purposes of accessing criminal 
history records, FBI provided TSA the level of a noncriminal justice 
requestor (e.g., equal to that of a private company conducting an 
employment check on a new applicant, according to TSA). As a result, 
TSA reported that its access to and airports' ability to review 
applicant criminal history records was often incomplete. We found that 
TSA and the FBI had not assessed whether a potential security risk in 
TSA's Security Threat Assessment process existed with the level of 
access to FBI criminal records that TSA had at the time.
---------------------------------------------------------------------------
    \10\ GAO-12-60.
---------------------------------------------------------------------------
    We recommended that the TSA and the FBI jointly assess the extent 
to which this limitation may pose a security risk, identify 
alternatives to address any risks, and assess the costs and benefits of 
pursuing each alternative. In May 2015 and June 2015, we reported that 
TSA and the FBI have since taken steps to address this recommendation. 
For example, in 2014, the agencies concluded that the risk of 
incomplete information did exist and could be mitigated through 
expanded access to State-supplied records.\11\ TSA officials reported 
that the FBI has since taken steps to expand the criminal history 
record information available to TSA when conducting its Security Threat 
Assessments for airport workers and others. For example, TSA reported 
that the study between the FBI and TSA culminated in the FBI 
implementing system changes to provide the TSA with access to expanded 
criminal history record information. According to TSA officials, the 
FBI's release of its Next Generation Identification System--which the 
FBI reported achieving full operational capability in September 2014--
has been enhanced to expand the State-provided criminal history records 
that are now incorporated into all FBI criminal history record 
information for TSA's Security Threat Assessments for aviation 
workers.\12\ We have not evaluated TSA's use of the new system.
---------------------------------------------------------------------------
    \11\ GAO-15-559T and GAO-15-678T.
    \12\ According to the FBI, the Next Generation Identification 
System is an incremental replacement of a previous fingerprint 
identification system that provides new functionality and improves 
existing capabilities. The technological upgrade accommodates increased 
information processing and sharing demands from local, State, Tribal, 
Federal, and international agencies.
---------------------------------------------------------------------------
    Further, in April 2015, TSA updated existing requirements to 
address the need for recurrent criminal history records checks for 
credentialed airport workers with unescorted access to secure airport 
areas at periodic intervals. Until recently, TSA did not require 
periodic criminal history checks of workers with unescorted access 
authority as long as workers maintain continuous employment with the 
same issuing authority. TSA updated its requirements in response to the 
ASAC's recommendation and the Secretary of DHS's statement regarding 
airport security enhancements.\13\ ASAC recommended that TSA should 
incorporate real-time criminal activity monitoring into the aviation 
worker vetting process in its final report on improving airport 
employee access control. ASAC found that TSA's practice of reviewing 
criminal history records once--at the time of vetting for initial 
employment--created the potential for TSA and airport operators to be 
unaware of aviation workers who had subsequently engaged in potentially 
disqualifying criminal activity yet continued to hold active 
credentials. ASAC reported that real-time criminal activity monitoring 
should be a part of the vetting process, similar to the perpetual 
vetting of aviation workers conducted by TSA against terrorist watch 
lists. Specifically, ASAC recommended that TSA accelerate 
implementation of a pilot of criminal activity monitoring using FBI's 
Rap Back Service, with a goal of full implementation of the service by 
the end of 2015.\14\ The Secretary of DHS stated that until TSA 
establishes a system for real-time recurrent criminal history records 
checks for all aviation workers, TSA should require fingerprint-based 
criminal history records checks periodically for all airport employee 
SIDA badge-holders.
---------------------------------------------------------------------------
    \13\ ASAC, at the request of TSA in January 2015, created a working 
group comprised of representatives from the aviation industry tasked 
with analyzing the adequacy of existing security measures and 
recommending any additional measures needed to improve employee access 
controls. See 49 U.S.C.  44946 (requiring establishment of an ASAC 
within TSA to provide advice and recommendations on aviation security 
matters, including the development, refinement, and implementation of 
policies, programs, rulemaking, and security directives pertaining to 
aviation security, while adhering to sensitive security guidelines).
    \14\ FBI introduced its Rap Back Service in September 2014 as part 
of its Next Generation Identification System. According to the FBI, the 
Rap Back Service provides users, such as airport authorities, the 
capability to receive immediate notification of criminal and, in 
limited cases, civil activity of enrolled individuals that occur after 
the initial processing and retention of criminal or civil fingerprint 
transactions, such as the fingerprint-based criminal history records 
checks currently conducted by TSA and airport operators.
---------------------------------------------------------------------------
    Chairman Katko, Ranking Member Rice, and Members of the 
subcommittee, this completes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.
  Appendix I: Criminal Offenses That Disqualify Applicants Under the 
    Aviation Workers Program from Acquiring an Airport-Issued Badge
    In accordance with 49 C.F.R.  1542.209, 1544.229, and 1544.230, 
an individual has a disqualifying criminal offense if the individual 
has been convicted, or found not guilty of by reason of insanity, of 
any of the crimes listed below in any jurisdiction during the 10 years 
before the date of the individual's application for unescorted access 
authority, or while the individual has unescorted access authority.
                    disqualifying criminal offenses
    1. Forgery of certificates, false marking of aircraft, and other 
        aircraft registration violation; 49 U.S.C.  46306.
    2. Interference with air navigation; 49 U.S.C.  46308.
    3. Improper transportation of a hazardous material; 49 U.S.C.  
        46312.
    4. Aircraft piracy; 49 U.S.C.  46502.
    5. Interference with flight crew members or flight attendants; 49 
        U.S.C.  46504.
    6. Commission of certain crimes aboard aircraft in flight; 49 
        U.S.C.  46506.
    7. Carrying a weapon or explosive aboard aircraft; 49 U.S.C.  
        46505.
    8. Conveying false information and threats; 49 U.S.C.  46507.
    9. Aircraft piracy outside the special aircraft jurisdiction of the 
        United States; 49 U.S.C.  46502(b).
    10. Lighting violations involving transporting controlled 
        substances; 49 U.S.C.  46315.
    11. Unlawful entry into an aircraft or airport area that serves air 
        carriers or foreign air carriers contrary to established 
        security requirements; 49 U.S.C. 
         46314.
    12. Destruction of an aircraft or aircraft facility; 18 U.S.C.  
        32.
    13. Murder.
    14. Assault with intent to murder.
    15. Espionage.
    16. Sedition.
    17. Kidnapping or hostage taking.
    18. Treason.
    19. Rape or aggravated sexual abuse.
    20. Unlawful possession, use, sale, distribution, or manufacture of 
        an explosive or weapon.
    21. Extortion.
    22. Armed or felony unarmed robbery.
    23. Distribution of, or intent to distribute, a controlled 
        substance.
    24. Felony arson.
    25. Felony involving a threat.
    26. Felony involving--
      (i) Willful destruction of property;
      (ii) Importation or manufacture of a controlled substance;
      (iii) Burglary;
      (iv) Theft;
      (v) Dishonesty, fraud, or misrepresentation;
      (vi) Possession or distribution of stolen property;
      (vii) Aggravated assault;
      (viii) Bribery; or
      (ix) Illegal possession of a controlled substance punishable by a 
        maximum term of imprisonment of more than 1 year.
    27. Violence at international airports; 18 U.S.C.  37.
    28. Conspiracy or attempt to commit any of the criminal acts listed 
        above.

    Mr. Katko. Thank you, Ms. Grover.
    The Chair now recognizes the Chairman of the full Homeland 
Security Committee, the gentleman from Texas, Mr. McCaul, for 
any statement he may have.
    Mr. McCaul. I would like thank Chairman Katko and Ranking 
Member Rice for holding this important hearing.
    Recent reports about the TSA screening, in my view, are 
deeply disturbing and call into question some of the post-9/11 
security measures we have worked hard to put in place. Yet 14 
years after that horrible day, Islamist terrorists are still 
plotting daily to kill Americans. Lately, the threat picture 
has gotten worse.
    Our aviation sector is of particular interest to the 
terrorists. They think that by taking down airplanes, they can 
bring down our economy. Last week we reportedly hit al-Qaeda's 
No. 2 in a drone strike in Yemen, where the terror group has 
been focused for years on developing bombs to plant on 
airplanes. It was an important counterterrorism victory. But it 
won't stop terrorists from aiming their sights at our skies.
    As we stare down these threats, Congress and the American 
people need confidence in our defenses. Terrorists have to be 
right only once. To defend ourselves, we have to be right 100 
percent of the time. Millions of travelers pass through our 
Nation's airports every year. We need to know that the systems 
in place will protect them. But in recent weeks, TSA has given 
us more concern than confidence.
    Reports about TSA's performance have alarmed the American 
people and raised fears that bombs could pass through airport 
passenger screening and terrorists might slip through TSA's 
employee vetting. We need to get to the bottom of these claims 
and do everything possible to deny terrorists an opportunity to 
exploit our defenses.
    Next month, I plan to hold a hearing on aviation security 
with the new TSA administrator once he is confirmed. I want him 
to outline his vision for TSA and give us answers on how he 
will close any identified vulnerabilities. This will not be 
easy. But in order to win the confidence of the American 
people, TSA needs a good wire brushing and strong leadership.
    We cannot become complacent about the threat. We can and 
must improve our screening capabilities. We need aviation 
workers who are thoroughly vetted. As the first step to tackle 
these challenges, I am co-sponsoring H.R. 2750, the Improved 
Security Vetting for Aviation Workers Act, introduced by 
Chairman Katko, which codifies the inspector general's six 
recommendations to ensure there are no loopholes in the 
security background checks for aviation workers.
    I also strongly support H.R. 2770, the Keeping Our 
Travelers Safe and Secure Act, introduced by Ranking Member 
Rice, which would close additional screening gaps and 
strengthen our aviation security. I want to thank the DHS 
Inspector General Roth for his leadership and strong oversight 
at TSA and DHS in bringing these vulnerabilities to our 
attention. I also want to thank the TSA and GAO witnesses here. 
I hope they are committed to changing the agency's direction 
and restoring the trust of the American people.
    When I heard that 73 airport workers had ties to terrorism, 
when I got that news, well, first of all, I couldn't believe 
it, and I want additional briefings on these ties to terrorism, 
but that is totally unacceptable 14 years after 9/11. I think 
the American people deserve better. When we see, you know, the 
grandma, the veteran, the Active-Duty service, the children 
being patted down at these airports and water bottles being 
taken out of luggage and all this going on. Yet, 96 percent of 
the stuff gets through. We can't talk about what it is because 
it is Classified. But 96, that is a 4 percent success rate.
    The American people deserve better. They deserve to feel 
safe when they travel on airplanes. With that, Mr. Chairman, I 
yield back.
    Mr. Katko. Thank you very much, Chairman McCaul.
    I now recognize myself for 5 minutes to ask questions. I 
will start with Mr. Roth. Briefly summarizing your findings in 
your report and the recommendations, you recommend basically 
four broad categories of recommendations. I just want to make 
sure I got them right here. No. 1, TSA should request and 
review additional watch list data, is that correct?
    Mr. Roth. That is correct.
    Mr. Katko. No. 2, that they require that airports improve 
verification of applicants' rights to work, correct?
    Mr. Roth. Correct.
    Mr. Katko. No. 3, that they revoke credentials when the 
right to work expires?
    Mr. Roth. Correct.
    Mr. Katko. No. 4, to improve the quality of vetting data, 
is that correct?
    Mr. Roth. Yes, sir.
    Mr. Katko. All right. Ms. Fitzmaurice, does TSA agree with 
all those recommendations?
    Ms. Fitzmaurice. Yes. They do.
    Mr. Katko. All right. I want to focus on requesting and 
reviewing additional watch list data first. I will start with 
Mr. Roth briefly. Could you tell me, you mentioned during your 
testimony that about 900,000 individuals, employees Nation-wide 
were run through that National Counterterrorism Center's TIDE 
database, is that correct?
    Mr. Roth. Yes, sir.
    Mr. Katko. All right. How onerous a task was it to do that?
    Mr. Roth. Well, for us it was actually, the actual task of 
running it, and actually NCTC did it for us, the legal 
authorization for it took some time. We had to get a memorandum 
of understanding between TSA and NCTC to do it.
    It took about 18 months to get all the legal authorizations 
that we needed to do it because of the requirements of the Data 
Matching Act. So legally and bureaucratically it was a huge 
lift. But then actually to do the match was quite easy.
    Mr. Katko. Okay. So the mechanical of checking against a 
database, once those hurdles are cleared, is relatively easy?
    Mr. Roth. Yes. The size of the data is not that large. So 
it was not that big of a task to match one set of data against 
the other set of data.
    Mr. Katko. So if we can fix these hurdles, it should be a 
relatively easy task to have this vetting going through the 
database on a regular basis?
    Mr. Roth. Yes, sir.
    Mr. Katko. All right. Thank you. Ms. Fitzmaurice, a couple 
questions for you. I would like to know when TSA first became 
aware of this problem with respect to not getting appropriate 
codes to run names through the database.
    I know from at least May 2014, there was a memo to 
Administrator Pistole advising that they needed additional 
codes from TIDE for employee screening, is that correct?
    Ms. Fitzmaurice. That is correct.
    Mr. Katko. All right. To your knowledge, is that when the 
administrator first became aware of this being a problem?
    Ms. Fitzmaurice. That is my understanding.
    Mr. Katko. Okay. So May 2014, at least, the administrator, 
the head of TSA was aware of the fact that they may not be, 
they were getting incomplete data regarding employees and that 
that may affect whether individuals with terrorist ties are 
working at airports across this country, is that right?
    Ms. Fitzmaurice. Yes. If I may explain the distinction of 
the information that we are requesting, TSA receives watch-
listed information that is maintained by the FBI's Terrorist 
Screening Center. That information is the information that we 
primarily use in our vetting process. That is who the Federal 
Government has deemed to be known or suspected terrorists and 
meets the reasonable suspicion standard, which is why that is 
then shared with us for the watchlisting purposes.
    What we are seeking access to is additional intelligence-
related information that is contained in the NCTC TIDE 
database. I think it is important to understand that the 
information that are on the watch list are in TIDE, but not 
everyone in TIDE is a terrorist and meets that reasonable 
suspicion standard to be then put on the watch lists.
    Mr. Katko. Understood. But the fact remains that there was 
at least 73 individuals that had potential ties to terrorism 
that were not identified because you did not have the 
appropriate information, is that correct?
    Ms. Fitzmaurice. That is correct. We did not have access to 
that information. We are seeking that access. We did review, 
though, all of the cases of those 73 individuals, and have 
determined they do not pose a threat to transportation 
security.
    Mr. Katko. Who made that determination?
    Ms. Fitzmaurice. TSA did, sir.
    Mr. Katko. Did anybody from outside TSA share in making 
that determination?
    Ms. Fitzmaurice. So sir, as part of our typical process, 
when we look at information and we look at individuals who may 
have some nexus to terrorism, we oftentimes will consult with 
various law enforcement and intelligence community partners.
    Mr. Katko. Did you do that?
    Ms. Fitzmaurice. We do that regularly as part of our 
process.
    Mr. Katko. So the question is clear, with respect to these 
73 individuals that have potential ties to terrorism according 
to the TIDE database, TSA has made their own independent 
determination that they don't pose a threat?
    Ms. Fitzmaurice. TSA reviewed all of the 73 records on 
these individuals, determined that they did not pose a threat 
to transportation. That is part of TSA's kind of day-in and 
day-out process. But every time we understand that someone may 
have a potential nexus, they may not be designated as a known 
or suspected terrorist, we do do that consultation with the IC 
and other law enforcement----
    Mr. Katko. I just want to make sure you are answering the 
question. Just a brief yes or no. Did you consult with people 
outside of TSA before you made the ultimate determination that 
these 73 individuals who are on the TIDE database don't pose 
any threat to TSA? Did you consult with outside people, yes or 
no?
    Ms. Fitzmaurice. Yes. That is part of our process. We did.
    Mr. Katko. Okay. Okay. I take it that is something we can 
see in a secured setting, the information regarding that?
    Ms. Fitzmaurice. Yes. We would be happy to share that in a 
closed setting.
    Mr. Katko. More importantly, this has raised a concern, of 
course, about a gap in, the biggest concern I have is the 
amount of time it takes, once a concern is raised with TSA, 
until the time when TSA actually acts upon it. So I guess from 
a guideline standpoint, we have May 2014 is when the 
information was brought to Administrator Pistole, correct?
    Ms. Fitzmaurice. Yes, sir.
    Mr. Katko. What did TSA do after that to try and fix this 
problem? Okay, I know as of today, a year later, the problem 
has not been fixed. So tell us what you have been doing in the 
mean time?
    Ms. Fitzmaurice. Certainly. So yes, the administrator did 
sign a memorandum, May of last year, acknowledging our interest 
to receive access to this information. We have been engaged in 
on-going discussions in the interagency to receive access to 
this information.
    I just recently came back to the Office of Intelligence and 
Analysis in March. Since my return to the office, have had 
numerous interagency discussions on this topic. We are working 
to expedite this process in our request to gain access to this 
information.
    Mr. Katko. With all due respect, when you say requesting to 
expedite this process, it has been a year, right? It has been a 
year. You realize that what could be a potentially serious 
security gap, an obvious security gap. It has been a year. That 
doesn't sound like it is being expedited.
    Ms. Fitzmaurice. So, you know, I understand your point 
there. Like I said, we are working very hard to gain access to 
this information.
    Mr. Katko. When you say very hard, what does that mean?
    Ms. Fitzmaurice. So we have been having----
    Mr. Katko. Because, you know, quite frankly, with respect 
to employee screening at airports, we have had this problem 
since 2011. We are still talking about problems with employee 
screening at airports 4 years later. We hear the same thing 
from TSA all the time, we are working on it. Well, with all due 
respect, and I know you are just the person here filling in for 
someone who is unavailable, but that is not acceptable.
    You have the Nation's security in your hands, this agency 
does. To sit there and give us a bureaucratic response we are 
working on it in an expedited manner, you are talking about a 
gap in terrorist watch lists. You are saying you are working on 
it?
    Ms. Fitzmaurice. So we are working on it. But I think what 
is really important to understand is that we do receive the 
Terrorist Screening Database and those are the individuals that 
are deemed to be threats to transportation security.
    We do vet all of the aviation workers against those. We 
have taken action on those. What we are seeking to do now is 
gain access to additional information that will assist us and 
provide a fuller context of who these individuals are and 
potentially identify unknown associations.
    Mr. Katko. The point is, and I ask you to take it back to 
your supervisors, and we are going to make the point crystal 
clear to them, and actually Mr. Rogers and I have made it clear 
to him again and again and so have many others here, the fact 
remains, TSA is not responding in a timely manner to seemingly 
very important issues.
    As it stands right now, were it not for the IG report, I 
highly doubt that we would be any closer to getting access to 
the TIDE database because the TIDE database identified 73 
people you didn't know about that may have had ties to 
terrorism. Your determination whether or not they have ties to 
terrorism is an internal thing that we will take a look at. But 
the bottom line is it needs to be more quickly done. We cannot 
have a bureaucratic morass in charge of guarding our airports. 
We just can't.
    With that, I will yield back questioning to the Ranking 
Member, Miss Rice.
    Miss Rice. Thank you, Mr. Chairman. Ms. Grover, you 
mentioned something in your testimony about how the TSA is not 
qualified as a law enforcement agency which limits the ability 
for them to get relevant information regarding someone's 
background. Is that a change that needs to be made to expand 
the databases that TSA would have access to to ensure that the 
vetting can be as thorough and complete as possible?
    Ms. Grover. So this has been a topic of discussion for many 
years. The Compact Act from 1998 is what set the requirements 
for requesters that were considered to be having criminal 
justice access versus non-criminal justice access.
    When we did our work several years ago, TSA's position was 
that they didn't really fit neatly into either one of those 
categories. It was their position that the non-criminal justice 
access records wasn't meeting their needs, which it clearly was 
not because at the time they only had access to information 
from about 15 States and really didn't have the information 
that they needed to make a complete determination of 
eligibility.
    They have worked with the FBI. In the past, the FBI has 
determined that they are not eligible for the different status 
of criminal justice requester and has expanded the database. So 
I believe now they have access to information from about 41 
States. That certainly comes much closer to meeting their 
needs.
    Miss Rice. Okay. But that is not going to be complete until 
they have access to all 50 and they are treated, for all 
intents and purposes, like a law enforcement agency. So we have 
to deal with that change. Okay. So you answered the second 
question I was going to ask.
    Ms. Fitzmaurice, one of the first things that you said in 
your testimony was that the vetting process by the TSA has been 
found to be effective, whether that is Mr. Roth's finding or 
your finding. I have got to tell you, just sitting here, how is 
it possible that anyone can come to that conclusion when we are 
talking about all of these deficiencies?
    Ms. Fitzmaurice. No, I understand that. Let me provide some 
context for that comment. So, yes, the inspector general, as 
part of his report, did say they found our vetting processes to 
be generally effective. Additionally, several years back, the 
Department sponsored a review of DHS's vetting programs. We 
participated in that. The review of that found that TSA's 
system was actually, I think, one of the best performing in 
effective systems that DHS has in the vetting enterprise.
    I think one of the key things that we have to keep in mind 
and part of what we are talking about today, though, is the 
information that we have access to. So we have a very 
sophisticated vetting system that takes millions of records and 
vets that against the databases of known and suspected 
terrorists. But we are absolutely dependent on having access to 
the right information about individuals who pose, you know, a 
threat to transportation security and who also may have some 
value from an intelligence standpoint.
    Additionally, as has been highlighted, you know, the other 
piece that is important on the information that we receive on 
the applicants who are seeking to work in our transportation 
system. So we are focused on those areas right now. But what my 
comment was specifically referencing was the effectiveness of 
the system that we have built, this very complex vetting 
system.
    Miss Rice. I think it is clear after today and probably 
clearer much earlier that we can't use that word effective at 
this point in my opinion.
    Mr. Roth, I just want to ask you, you said that TSA denied 
credentials to 4,300 applicants who had previously been found 
to be okay? Can you just elaborate on that? Do you know what I 
am making reference to?
    Mr. Roth. With regard to immigration status?
    Miss Rice. Yes. Yes. So how did that happen? If you can do 
it quickly because I have a couple other questions.
    Mr. Roth. Yes. That is precisely my question: How could 
this happen? I mean, the airports are legally responsible for 
ensuring immigration status, that these folks have lawful 
authority to work. They do that. By the time they send it to 
TSA, they are basically certifying that----
    Miss Rice. They being who? Who sends that information?
    Mr. Roth. Sorry. The airport operators.
    Miss Rice. The airport operators send the background 
information to TSA?
    Mr. Roth. With the certification that these folks, in fact, 
are legally entitled to work.
    Miss Rice. So this is a deficiency on the part of the 
airport operator not doing----
    Mr. Roth. Correct. Then what TSA does is they take that 
information, they bounce it off of CIS records. That is where 
we found the discrepancy.
    Miss Rice. Okay. So it is clear, I think, from what we are 
hearing here today that post, you know, 9/11, 14 years post-9/
11, we still have Federal agencies and some private operators 
who are siloing relevant information in a way that could lead 
to a catastrophe. How do we fix that, Mr. Roth?
    Mr. Roth. Well, certainly the airports themselves under law 
have the obligation to certify whether or not someone meets the 
criminal history check. In other words, they are void of any 
disqualifying criminal offenses.
    That is 450 airports across the country. TSA is obligated 
to do a quality check on that. Unfortunately, because these 
aren't electronic records, they have to do a manual review. So 
if they do an airport inspection, they might do a manual review 
of, in the larger airports, only about 1 percent of the 
applications to determine whether or not the airport workers 
who have these SIDA badges, in fact, have disqualifying 
criminal offenses.
    Miss Rice. Mr. Roth, I have got to tell you, I think that 
is one of the most disturbing things that I have heard here, 
that airport operators are not doing their due diligence to 
ensure that people that they are sending to you to get the 
stamp of approval, they are not giving you the relevant 
information that you need.
    Mr. Roth. I share your concern. It is especially concerning 
given the fact that, you know, there are no layers of security. 
Once you have a SIDA badge, that means you have unescorted 
access to anywhere in the airport. You can load baggage. You 
can have access to the aircraft. You can do basically anything 
unescorted. That, obviously, is concerning if we don't have a 
better understanding of who these airport workers are.
    Miss Rice. Well, certainly the airport operators have to 
assume an enormous amount of accountability and responsibility. 
We have to figure out a better way to check to make sure that 
the information that they are giving to the TSA is correct.
    Thank you, Mr. Roth and Ms. Fitzmaurice, and Ms. Grover. I 
yield back my time. Thank you, Mr. Chairman.
    Mr. Katko. Thank you, Miss Rice. The Chair now recognizes 
Mr. Rogers from Alabama for questions he may have.
    Mr. Rogers. Thank you, Mr. Chairman. Now, Mr. Roth, and 
this could be for Ms. Fitzmaurice, either one, because both of 
you have just made statements that inferred that you don't have 
access to databases that would give you the relevant 
information to make sure that these staffers don't get the SIDA 
badge, is that what I am hearing?
    Ms. Fitzmaurice, let me go to you, you made reference a 
little while ago that you can't do your job without access to 
important information. So you are saying that you don't have 
that access?
    Ms. Fitzmaurice. So we do have access to the U.S. 
Government's terrorist watch list data. What we are seeking 
access to is additional intelligence information on 
individuals. We are working through the interagency currently 
to request that.
    Mr. Rogers. Is that an existing database that you want 
access to?
    Ms. Fitzmaurice. That is a database that we are seeking 
some automated access to be able to incorporate additional data 
into our automated vetting processes.
    Mr. Rogers. Heretofore, you have been told you cannot have 
access? Or is it just something you all hadn't thought of?
    Ms. Fitzmaurice. I think that when we recognized the value 
of this, we have been working to pursue gaining access to this.
    Mr. Rogers. But you knew about it before now? I am trying 
to figure out why at this late time you are just now saying 
well, we probably should have had access to that database. If 
it was a database that had information about potential 
terrorists in it, why wouldn't you already be plugged into it?
    Ms. Fitzmaurice. So again, I think what we have to 
understand is the watch lists, which are maintained by the 
FBI's Terrorist Screening Centers, are what are determined to 
be individuals who pose, you know, threats to transportation. 
We receive those watch lists for purposes of our vetting.
    I think what we have recognized over time through our 
experience in vetting individuals and understanding the 
additional intelligence information that is contained in TIDE, 
we believe that we can supplement the value of what we do by 
identifying potentially individuals who may be unknown and----
--
    Mr. Rogers. Who has control of that database now?
    Ms. Fitzmaurice. So that database that we are talking about 
is maintained by the NCTC.
    Mr. Rogers. Okay. Are they giving you any problems about 
accessing it? Is it just a technical issue now? Are they happy 
to let you in on it?
    Ms. Fitzmaurice. Yeah. This is a coordination discussion 
right now with the interagency. The vetting systems are very 
complex. You know, we have the airports, we have the airlines, 
they are submitting information to us. We have our system that 
is actually doing the analysis. We are getting information from 
the watchlisting community. So it is really just more of the 
complexities of that interagency coordination process that we 
are working through.
    Mr. Rogers. How long do you think it will take you to work 
through that?
    Ms. Fitzmaurice. I am very optimistic now. We have had 
frequent and on-going discussions on this matter. I would 
expect that we will be able to work through it in the very near 
future.
    Mr. Rogers. That is very lawyerly.
    Ms. Fitzmaurice. I am not a lawyer, sir.
    Mr. Rogers. You sound like one.
    Mr. Katko. All right, just for the record, that hurts me 
because I am a lawyer.
    Mr. Rogers. I am a recovering attorney too. That is why I 
know one when I see one. So 60 days? Ninety days?
    Ms. Fitzmaurice. I can tell you that we are having daily 
conversations on this topic. Even as frequent as this 
afternoon, we will be continuing those discussions on how we 
can seek and gain the access.
    Mr. Rogers. Mr. Roth, is what she just described what you 
were making reference to about the SIDA badges?
    Mr. Roth. Somewhat. It is a little more complicated than 
that from our point of view. There are a number of codes that 
we are talking about----
    Mr. Rogers. A number of what?
    Mr. Roth. Of codes or sort-of categories of individuals or 
names in the large TIDE database. Now, some of those are, in 
fact, known or suspected terrorists that TSA does not have 
access to. Then there are others that are out there that are 
simply in the large TIDE database that really aren't used for 
watchlisting purpose, although TSA would like them to be noted 
for watchlisting purposes.
    So there is really two categories of information. Some that 
is already sort-of vetted information, for example, there are 
several of these categories that other components within DHS 
gets but TSA doesn't get.
    Mr. Rogers. Why?
    Mr. Roth. It is difficult to describe in on open setting. 
But we can certainly explain it later on if you would wish.
    Mr. Rogers. Yes, I do. Let me ask, is this the first time 
that you have done an IG report on this problem?
    Mr. Roth. We have done reports on access badges in general, 
control over access badges. This is the first time, though, 
that we have done sort-of a data run comparing the SIDA badges 
to the terrorist databases.
    Mr. Rogers. Okay. All right. Do you agree with Ms. 
Fitzmaurice's characterization that the 73 people that were 
identified as having terrorist ties really weren't a problem?
    Mr. Roth. We don't have any information as to the process 
that TSA used once we gave them those names in November of last 
year. I would say that the more information that you have, the 
better decisions that you make. So whether or not these 73 
individuals, in fact, did not pose a threat to terrorism 
doesn't mean that the system is working perfectly.
    Mr. Rogers. Well, my time is up. I hope one of the other 
Members will pick up on this. Because I would like to know if 
they weren't a problem, why were they on the list to begin 
with? With that, I yield back. Thank you.
    Mr. Katko. Thank you, Mr. Rogers. The Chair now recognizes 
Mr. Payne from New Jersey for questioning.
    Mr. Payne. Thank you, Mr. Chairman. Thank you to the 
Ranking Member of this committee. Mr. Roth, a bit of a kind-of 
confusing element in your most recent report is how TSA's 
vetting process can be considered generally effective, yet 73 
individuals with links to terrorism were not found during this 
process. It seems a little contradictory. Can you elaborate?
    Mr. Roth. Certainly. Thank you for that opportunity. When 
we talk about generally effective, what we are talking about is 
the operation that the vetting unit does within TSA. You know, 
they are only as good as the information that they get. So they 
do a very significant job, for example, they have over 2.2 
million recurring vetting hits that they have to process every 
year. That is about 6,000 per day.
    Additionally, they have to actually manually review 24,000 
records a year, so that is 2,000 records a month, 500 records a 
week, to, you know, look at potential hits off the Terrorist 
Screening Database, to see whether or not these, in fact, are 
the individuals who are listed on the database itself.
    So, I mean, they do a good job with the information that 
they have. But, again, what we had said is that we uncovered a 
vulnerability which is they didn't have all the information 
they needed to do their job.
    Mr. Payne. So basically with the volume, if it was other 
than an issue of terrorism, it would be considered not that 
bad. But, you know, the potential of 73 individuals, you only 
need one to have ill will against this country.
    Mr. Roth. That is the nature of the threat that TSA faces. 
It is an asymmetric threat, that all it takes is one. They have 
to be right every single time.
    Mr. Payne. Your report acknowledges passport numbers and 
Social Security numbers being strong matching elements, yet 
neither is required during the application process. In your 
view, can TSA effectively identify potential risk if such 
elements are discounted?
    Mr. Roth. I think it makes their job more difficult. One of 
the things with regard, for example, the Social Security 
numbers, that is probably the best identifier you can use as 
far as an individual to being able to match an applicant off of 
the database. Unfortunately, the Privacy Act, which has some 
exemptions, does not exempt TSA from requiring SIDA badge 
applicants to have a Social Security number. That is something 
that I think would be a useful thing to have.
    Mr. Payne. Okay. Ms. Fitzmaurice, during the Q and A with 
the Members up here, what leverage do we have with the airport 
operators if they are not complying and giving the information? 
You know, I believe you said that there is a lapse sometimes 
with the airport operators in doing that job. What leverage do 
we have to make sure that they are complying?
    Ms. Fitzmaurice. So, you know, before we get to the 
compliance piece, I think what is important is us working 
closely with the airport operators to identify the areas for 
improvement, put out guidance on how we can do that, work with 
them to implement that, and then ensure that we have a robust 
compliance mechanism to go back and review and ensure that they 
are doing that, and, you know, take corrective action if we 
continue to find that they are not complying with that.
    Mr. Payne. What would those corrective actions consist of? 
If we are having, you know, obviously continued issues around 
them getting to where we need them to be, what, what leverage 
do we have if they are falling short?
    Ms. Fitzmaurice. Sure. Well, we do have formal security 
programs with all of the airports that they are required to 
comply with. We have inspectors who go out and review their 
performance against those requirements. I am not intimately 
familiar with all of the consequences, I will say, with respect 
to the, if there are issues of noncompliance, but happy to 
follow up with you on that.
    Mr. Payne. Okay. Well, what can we do to strengthen the 
relationship TSA has with the airports to ensure accuracy of 
the data from potential and current aviation workers?
    Ms. Fitzmaurice. Thank you. So, you know, we continuously 
look at this. We, again, we concur with the recommendations 
that the OIG has made in this area. Going back to 2012, we have 
been making improvements, putting in system logic so that it 
will reject information that may be erroneous or inaccurate.
    We have also added automation to allow them to upload 
identity documents so we have that information to be able to 
review. But looking forward, I think there are continued 
opportunities. One of the things that we are looking at is 
further automation in this process.
    So the way the information comes from the airport operators 
through channelers to us is through both automated and some 
manual processes. We are looking to move to a fully automated 
process that will reduce the opportunity for erroneous data to 
be submitted.
    Mr. Payne. Thank you. I yield back, Mr. Chairman.
    Mr. Katko. Thank you, Mr. Payne. The Chair now recognizes 
Mr. Ratcliffe from Texas for questioning.
    Mr. Ratcliffe. I thank Chairman Katko and Ranking Member 
Rice for holding yet another hearing on this matter. I have to 
say, though, that it feels a little bit like the movie 
Groundhog Day, where the same things keep happening over and 
over again.
    Inspector General Roth, you are back here again, as you 
were previously. We have had several hearings on this matter 
before this subcommittee on security breaches caused by 
improper screening. Most recently in April, I think, we had 
then TSA Administrator Carraway talking about the steps that 
had been taken to make airport and airline employee screening 
more secure.
    But earlier this month, we had the report about officials 
being able to get banned items through security checkpoints 95 
percent of the time. Now, Inspector General, we have got your 
report revealing that the TSA failed to identify these 73 
active workers with links to terrorism, citing a lack of 
effective controls in your report. I note in your report, you 
conclude with this statement, ``With our recent report, we add 
another security vulnerability that TSA must now address.'' I 
agree with you. TSA does need to address these issues.
    As Chairman McCaul noted, it has now been almost 14 years 
since 9/11. Unfortunately, some of what I see in your report 
calls to mind the troubling pre-9/11 trend that we had. I know 
that you are a former Department of Justice official, former 
assistant United States attorney, I should say. As you know, we 
had a problem before 9/11 where intelligence and law 
enforcement were not sharing information and connecting the 
dots. But we had an excuse back then, the law didn't allow it. 
So we changed the law to allow the sharing of that information.
    So I want to ask you about your report because you say that 
TSA didn't identify these 73 individuals with links to 
terrorism because TSA isn't cleared to receive all terrorism 
categories under the current interagency guidance. Did I 
restate that accurately?
    Mr. Roth. Yes, sir.
    Mr. Ratcliffe. Okay. You talked a little bit about this 
with Congressman Rogers, but I am not real clear. Is this a 
situation where we need to change the law?
    Mr. Roth. It may very well be. My suggestion would be to 
allow TSA to deal with ODNI, the Office of National 
Intelligence, and determine whether or not they will be able to 
have access to this information. If not, it may require a 
change in the law.
    I will say that I share your concerns that information 
sharing is critical, particularly in this area. Even if there 
is information that is contained within the TIDE database that 
is unsubstantiated, it is still useful for individuals doing a 
manual review of somebody who is going to have unfettered 
access to secure areas in the airport.
    What is very troubling, both about this sort of TIDE 
database as well as criminal history checks, is that TSA is 
being treated, for all intents and purposes, as if they were a 
Wal-Mart, that an individual holding a SIDA badge for recurring 
criminal history checks, stands in line with Wal-Mart to 
determine whether or not there will be a criminal history 
check.
    Mr. Ratcliffe. Okay. Let me ask you about that. Because we 
talked a little bit about that. In your testimony, you talked 
about the fact that airport operators review the criminal 
histories for new applicants for these badges to secure areas, 
secure airport areas, but that TSA and the airports aren't 
legally authorized to conduct recurrent criminal history 
vetting. Is that right?
    Mr. Roth. That is correct.
    Mr. Ratcliffe. So, currently, then, how do TSA and the 
airports know if an employee has committed a crime during their 
tenure at the airport?
    Mr. Roth. That is the difficulty of it, and that is why TSA 
is providing this Rap Back Program, a pilot program that they 
are going to start at the end of this year, to try to attempt 
to get recurrent vetting. It is a new program that the FBI has 
started. But as far as the current conditions, that is a 
vulnerability.
    Mr. Ratcliffe. Okay. But is TSA right now--are they 
checking--do they have the ability to check against the 
Marshals Service Wants and Warrants list?
    Ms. Fitzmaurice. Yes, we do check against the open Wants 
and Warrants for the Marshals Service.
    Mr. Ratcliffe. Okay. But that list doesn't include all 
disqualifying crimes, correct?
    Ms. Fitzmaurice. That is correct. What is really critical 
here is getting access to the Rap Back capability.
    Mr. Ratcliffe. Okay. I see that my time has expired, so I 
yield back.
    Mr. Katko. Thank you, Mr. Ratcliffe.
    I now recognize the gentleman from Massachusetts, Mr. 
Keating, for 5 minutes of questioning.
    Mr. Keating. Thank you, Mr. Chairman.
    Mr. Ratcliffe mentioned this reminded him of the movie 
Groundhog Day. This also reminds me of the Leonardo DiCaprio 
movie, Catch Me If You Can, where he dresses up like an airline 
pilot, just waltzes right in through security. Because these 
are very real issues.
    We had a hearing of the Oversight Committee, which I was 
Ranking at the time, at Logan Airport several years ago, and 
one of the major things that came out of that was the fact that 
there is real jurisdictional problems with airports that we 
have. We are hearing it again here today, in very severe terms.
    I just want to follow up and say, if you have noncompliance 
by the municipal airport, what can you do about it? I mean, we 
found holes in fences, perimeters not being looked at, and they 
were cited in vulnerability assessments and other things, and 
nothing was done because there was no enforcement over those 
municipal airports or whoever runs the airport authority, 
whoever runs these things.
    We are seeing now in testimony this morning that when you 
are reviewing some of the employment vetting that is there, 
that you are doing only 1 percent of it. But you are finding 
mistakes that they don't do and they didn't come forward with 
it. Yet, how is that followed up? How are they penalized for 
that? What are they threatened with for that?
    It seems like we have a basic jurisdictional issue aside 
from information sharing here, where you have Federal agencies 
that aren't helping each other or giving each other information 
that they should be giving each other. We are going to change 
the law to make sure that is the case. Yet, what are you doing 
with the municipalities?
    Now, Ms. Fitzmaurice, there was an effort on the part of 
TSA to take the exit lanes in that inner security area and move 
the authority away from TSA employees and give it to the 
local--give the responsibility to the local municipal 
employees. Given what we have discussed this morning, is it 
fair to say that is sufficiently dead? Are you going to stop 
pushing that effort to get rid of TSA employees and replace 
them with municipal airport employees, or authority of the 
airport, you know, their employees?
    Are you aware of what that effort has been in the last 
couple of years trying to shift that responsibility?
    Ms. Fitzmaurice. I want to make sure that I am responsive 
and I understand your question.
    You are asking whether we would take back the 
responsibility of the airport worker?
    Mr. Keating. No. No. You have been asking the airports over 
the last couple of years to shift the responsibility, take the 
responsibility with--they are putting their employees now in 
that exit lane out of the airports in which many airports is 
right next to where people are coming in. That has been 
delayed, I think in part, because Members of the committee 
expressing concerns.
    Is it fair to say, given what we are hearing this morning, 
that that is not going to be pursued anymore?
    Ms. Fitzmaurice. You know, I apologize. I don't have an 
answer for you on that. I will have to get back to you.
    Mr. Keating. Also, when we are looking at the number 
studies, I want to thank GAO. I mean, on the vulnerability 
studies on the physical aspects of this, we found that it is 
less than 3 percent of the airports that are being reviewed. 
This morning, we found out it is only 1 percent. We also know 
that the airports aren't doing their job either. It is too many 
of them. So we have these lapses all the way through. What I 
would hope, and maybe I can ask Mr. Roth this, do you think 
there is a need to have more accountability and a better need 
to enforce the operations of airport authorities and municipal 
airports as well when they can just look at the 
recommendations, look at what has been found, and we are not 
even clear anything's done other than them--they can shrug 
their shoulders, as they did with perimeter security when we 
addressed it, just say, well, we don't have the resources for 
this.
    I just don't want to see a situation where we have a 
strategy and the Federal Government is pointing their finger at 
municipal airports and the authorities, the authorities are 
pointing at the Federal Government, our other law enforcements 
all pointing their fingers. Finger-pointing is dangerous, and 
it is going to get us nowhere. That is what we have been 
dealing with in the last few years.
    So do you think there is a need to put teeth in what the 
TSA can do with airports?
    Mr. Roth. You raise a good point. We haven't actually done 
any work on that, but it is certainly something that we would 
be willing to consider, which is irrespective of whether TSA 
follows up and actually finds out, for example, whether the 
airport officials are doing the criminal history checks that 
they need to do, when they find noncompliance, what do they do 
about it? Unfortunately, I don't have the answer to that 
question, but you raise a very good question and----
    Mr. Keating. The answer when it comes to vulnerability 
studies, it is a toothless grin, nothing. So let's find out 
here and put some teeth in what we are trying to do.
    I yield back, Mr. Chairman.
    Mr. Katko. Thank you, Mr. Keating.
    The Chair now recognizes Mr. Carter from Georgia for 5 
minutes of questioning.
    Mr. Carter. Thank you, Mr. Chairman. I appreciate your 
leadership in this most disturbing situation we find ourselves 
in.
    Mr. Roth, I read your report, and I appreciate it very 
much, but there were several things in your report that were 
very disturbing to me, very disturbing.
    First of all, it is my understanding that security 
credentials are being given to individuals regardless of their 
work or authorization dates. Is that correct?
    Mr. Roth. That is correct. What we had found was, in fact, 
say you were authorized to work for 18 months, you would get a 
security badge that would not turn off at the termination of 
your authority to work.
    Mr. Carter. So what you are telling me is that we might 
have people, and we may have people, we probably do have 
people, who are walking around unescorted in our airports and 
security areas who are here illegally?
    Mr. Roth. Who do not have authorization to work, yes. We 
identified that as a vulnerability.
    Mr. Carter. You know, certainly--certainly, we have these 
people's Social Security number, correct?
    Mr. Roth. I am sorry. I missed the question.
    Mr. Carter. Certainly, we have these people's Social 
Security number? We have that?
    Mr. Roth. We do not, no. That----
    Mr. Carter. Whoa. Whoa. Whoa. We do not. So you are telling 
me we have got people walking around unescorted in secure areas 
in our airports, and we don't even have their Social Security 
number?
    Mr. Roth. That is correct. We did a scrub of the data and 
found a number of areas in which they don't have either their 
alien registration number, if that is appropriate, their 
passport number, if that is appropriate, or their Social 
Security number.
    Mr. Carter. Holy cow.
    Ms. Fitzmaurice, the report in the inspector general's 
investigation found that we had thousands of incomplete, or 
inaccurate applications and biographical information.
    Can I ask you, Ms. Fitzmaurice--and if you will bear with 
me, please--can you give me the first initial of your first 
name?
    Ms. Fitzmaurice. S.
    Mr. Carter. S? Now I have got 3 minutes left to ask 
questions here. Do you think I can guess your first name in 
that 3 minutes? My point is simply this: We have applications 
that only have the first initial of the first name?
    Ms. Fitzmaurice. That is correct.
    Mr. Carter. Does that scare you?
    Ms. Fitzmaurice. So I think we are absolutely looking at 
and concerned with where we have erroneous and missing 
information, and we are taking actions. We have already 
implemented logic in our system to reject these types of----
    Mr. Carter. I appreciate that, Ms. Fitzmaurice. I really 
do. Look, I am from Georgia. I travel at least once, usually 
twice, through the busiest airport in the world, through 
Atlanta Hartsfield-Jackson Airport. To think that we may have 
people walking around in that airport who we don't even know 
what their name is. We don't have their Social Security number. 
I mean, isn't that something--look, I am okay. You know, I am 
pretty confident I can take care of myself to a certain extent. 
But my son's coming up later today. I want to make daggone sure 
he is okay. My younger son's coming up today, my middle son's 
coming up tomorrow. Isn't this something that should be taken 
care of immediately? Immediately?
    Ms. Fitzmaurice. Yes. We are taking actions immediately to 
work on continued improvements to improve the data quality for 
the vetting systems.
    Mr. Carter. I just can't believe that in the world's 
busiest airport, in Atlanta Hartsfield-Jackson Airport, that we 
could have people walking around unescorted in secure areas in 
that airport, who we don't know their Social Security number; 
we don't know their name, and that is something that we are 
sitting here talking about? You ought to be on the phone right 
now. Stop, we have got to figure this out.
    I am appalled at this. Mr. Roth, I appreciate the efforts 
here, and I appreciate all the efforts of all of you, but we 
need to take care of this immediately.
    Mr. Chairman, I yield.
    Mr. Katko. Well, thank you, Mr. Carter. I think the 
committee shares your frustration, and that is why we had 
something else scheduled for today here on passenger rail 
safety and surface transportation safety, but instead we chose 
to have this hearing.
    I want to juxtapose TSA's turtle-like response to seemingly 
serious problems with what the committee has done. We found out 
about this less than a week ago. We are having a committee 
hearing today, and we are marking up a bill to fix this problem 
right after this hearing.
    So the point is, if you have issues, and you need things 
done, I highly encourage TSA to come to us, because we can give 
you legislative fixes to things instead of waiting a year to 
negotiate or hope to get something while the security lapse--
securities gaps continue.
    Now, I note TSA is working on issues and trying to fix 
things. Let me tell what you TSA is doing in the mean time.
    We had a problem with PreCheck. Our PreCheck bill is going 
to be introduced next week, or in the next couple of weeks, to 
deal with expanding, revamping the PreCheck Program and having 
it being run properly, because they have concluded that it was 
not. Part of the PreCheck was called Managed Inclusion, we take 
people out of nonsecure lines and put them into PreCheck 
because--for keeping to our passengers' flow. That is not 
right, and that is going to be fixed. Mr. Thompson is 
introducing a bill regarding that. We have access control and 
screening issues at airports to employees that are absolutely, 
positively abysmal. When people are having guns on airplanes, 
when people are dealing dope out of the Oakland Airport, it is 
a problem. It can't wait for discussions. We are going to fix 
that. We are introducing a screening bill next month that is 
going to fix that.
    We also have many other things we are going to be working 
on. I can tell you going forward, I highly encourage TSA to 
work with us and not just close ranks and say, we are working, 
looking into the issue. It is now a year after you found out 
that your employees were not getting checked against a 
database, and a year after people started requesting that 
information happen, and they are still spinning their wheels. 
That can't happen.
    You are entrusted with our Nation's security, our 
children's security, like Mr. Carter said, and we need to do a 
better job, we just flat out need to do a better job, and it 
starts with leadership.
    It took us months of begging the President just to appoint 
a successor for TSA. That is unacceptable in such an important 
agency. So I can tell you one thing going forward, we are not 
going to wait for things to happen. We are going to legislate, 
and we are going to fix these things, because we can't wait for 
these things to be fixed.
    Mr. Roth, I encourage you to keep doing what you are doing. 
You are doing a superb job at keeping us informed and exposing 
issues that need to be taken care of. I know it is a lot of 
work. I can tell you, Ms. Grover, too, what you are doing is 
critically important to the safety of our country. I applaud 
both of you and your agencies and your staffs for what you are 
doing, so keep it up.
    Now, with that I want to thank the witnesses for their 
testimony and the Members for their questions. The Members of 
the committee may have some additional questions for the 
witnesses, and we will ask your response to these in writing. 
The hearing will be held open for 10 days without objection. 
The committee stands adjourned, but I will note that we are 
going right to mark up in about 15 minutes after a break, and 
we are going to have these bills out of committee today, 
hopefully, and then through the full committee next week and on 
the floor for a vote. That is how it should be done.
    [Whereupon, at 11:21 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
